                      U.S. SMALL BUSINESS ADMINISTRATION
                         OFFICE OF INSPECTOR GENERAL
                             WASHINGTON, D.C. 20416

                                                                AUDIT REPORT

                                                          Issue Date: March 30, 2000
                                                          Number: 0-15



To:           Lawrence E. Barrett, Chief Information Officer

From:         Robert G. Seabrooks,
              Assistant Inspector General for Auditing

Subject:      Audit of SBA’s Proposed Systems Development Methodology

       SBA’s strategic goals depend heavily on the development of new information
systems. In the past, however, SBA has been criticized for inadequate planning and
poor systems development procedures. The Office of the Chief Information Officer
(OCIO) is, therefore, developing a “Systems Development Methodology” (SDM) to help
accomplish its strategic goals and address those criticisms. The SDM is a set of
procedures and quality controls intended to reduce risks in the development of new
systems and ensure that systems function as intended. In response to a request by the
OCIO, the Auditing Division of the Office of Inspector General reviewed and evaluated
the proposed SDM.

      The proposed SDM, modeled on one obtained from the Department of Housing
and Urban Development, is divided into six phases:

•   Initiate Project: The need for the system is defined and validated. A project plan is
    developed; a feasibility study, risk analysis, and cost/benefit analysis are conducted;
    and the proposed system is categorized in terms of platform, development
    techniques, and type of effort.

•   Define System: System objectives are expanded into specific, detailed functional
    and data requirements, which form the basis for the detailed design of the system.

•   Design System: Detailed specifications are developed that emphasize the physical
    solution to the users’ information management needs.

•   Build System: Developers transform the information provided in the Design System
    phase into machine-executable form, and ensure that all of the individual
    components of the system function correctly and interface properly with other
    components.
•   Evaluate System: Independent testers measure the system’s ability to perform the
    functions required by the users and ensure an acceptable level of performance.

•   Operate System: The system is initially installed at a pilot site and eventually
    released into its full-scale production environment. Training in using the system is
    conducted and system performance is monitored.

                                  OBJECTIVES AND SCOPE

       The objectives of our review were to determine whether the proposed SDM (1) is
consistent with government and industry standards, and (2) will help ensure that new
information systems are developed on time, within budget and with the intended
functionality. We used guidance obtained from the Information Systems Audit and
Control Association (ISACA) to evaluate the SDM. That guidance incorporates criteria
established by the Office of Management and Budget, General Accounting Office,
National Institute of Standards and Technology, Department of the Treasury, other
Federal Agencies and the Institute of Electrical and Electronic Engineers.

       We evaluated the proposed SDM with respect to its structure, key closure
       1
points, security and internal controls, participation and responsibilities of key groups,
communications between key groups, and documentation and programming standards.
Fieldwork was conducted from August 1999 through February 2000 at SBA
Headquarters in Washington, DC. The review was conducted in accordance with
Government Auditing Standards.

                                      RESULTS OF AUDIT

       We found that the proposed SDM (1) is generally consistent with government
and industry standards, and (2) will help ensure that new information systems are
developed on time, within budget and with the intended functionality. We did note,
however, some differences between the SDM and applicable guidelines as described
below.

Specify a Role for the OIG in the Initiate Project Phase

        Although the proposed SDM does specify OIG (audit) roles that are consistent
with the ISACA guidance in the subsequent phases, it does not specify an OIG role in
the Initiate Project phase. In the Initiate Project phase, the ISACA guidance specifies
the audit role of reviewing and evaluating the “Needs Statement” and other phase
deliverables. The requirements of this phase are critical to the success of subsequent
phases, and specifying a role for the OIG can help ensure those requirements are
satisfied before subsequent phases are initiated.

1
 Closure points are the formal end to a phase that require completion of documentation and may require
management review meetings to ensure that all phase activities have been carried out and all
deliverables have been completed.
                                                  2
Address Records Management Requirements

       In the Define System phase, the proposed SDM calls for determination of
functional requirements in several categories, such as performance, security, and
internal controls, but it does not specifically call for determination of records
management requirements. Federal government agencies are required to preserve and
maintain records of their organization, functions, policies, decisions, procedures,
operations and activities. With respect to automated information systems that create,
process and maintain electronic records, there are a number of specific federal records
management requirements. Accordingly, Title 36 CFR section 1234.10 requires
agencies to establish procedures for addressing records management requirements
before approving new electronic information systems or enhancements to existing
systems. The SDM could be improved by designating a role for the agency’s records
manager in the Define System phase, with responsibility for determining records
management requirements.

Require Development of a Vulnerability, Threat, Safeguard Matrix

        The proposed SDM currently calls for identification of system assets, associated
threats and vulnerabilities, and appropriate countermeasures to safeguard against
them, but it does not specify a standardized deliverable to help ensure accomplishment
of this requirement. According to the ISACA guidance, good system development
methodologies specify preparation of predefined products and deliverables, and in
better methodologies these products are standardized. The proposed SDM does
specify a number of predefined products and deliverables, such as checklists and
analyses, to help ensure the satisfaction of key requirements. A matrix, as illustrated
below, is an example of a standardized deliverable that would help ensure
comprehensive identification of threats, vulnerabilities, and safeguards for all system
assets and components.

 Asset Category           Threat             Vulnerability        Safeguard(s)
Computer             Destruction          Fire                 Fire Suppression
Hardware                                                       System
Mission Critical     Unauthorized         Network              Firewalls, Access
Data                 Disclosure,          Penetration          Controls, Data
                     Modification or                           Encryption
                     Destruction

Complete the Application and Programming Standards and Related Documents

       SBA’s current programming and applications standards are either outdated or
incomplete. The official standards document is the OIRM Operations and ADP
Standards Manual, created in 1990, when major applications were developed on
mainframe computer systems. Per OCIO personnel, this manual is not suited for client-
server system development – currently the agency’s primary development platform.


                                           3
        Client-server development standards are addressed in a separate document that
is not complete at this time (OISS Application Standards). The chapter of the document
that pertains to programming standards is complete, however, and should be
incorporated in the SDM either by reference or as an appendix.

       The ISACA guidelines specify that organizations must identify and follow policies,
procedures and standards in developing automated information systems. Some of the
policies, procedures and standards referred to in the SDM, however, have not yet been
developed. These include:

      •      Cost / Benefit Analysis Methodology
      •      Standard Release Procedures
      •      Gap Analysis Procedures

      Without complete guidance and reference documentation, there is a greater
chance that system development projects may deviate from acceptable practices.

Recommendations

We recommend that the Chief Information Officer:

1A.   Make the following changes to the proposed SDM, and establish the SDM as
      official agency policy for system development projects.

      •   Modify Table 1-11 to designate a role in the Initiate System phase for the
          OIG, with the responsibility to review phase products to ensure critical
          requirements have been satisfied.

      •   Modify section 2.0 to designate a role for the agency records manager with
          the responsibility to ensure that federal records management requirements
          are defined.

      •   Modify section 1.6 to require the preparation of a threat, vulnerability and
          safeguard matrix, or other standardized deliverable, to help ensure
          safeguards are identified for all significant asset threat combinations.

      •   Incorporate Chapter 4 of the OISS Application Standards in the SDM either
          by reference or as an appendix, and specify in section 4.3.2 that these are the
          standards to be followed for client-server development projects.

1B.   Establish responsibilities, budgets, milestones and deliverables to ensure
      completion of the Programming and Application Standards, Cost / Benefit
      Analysis Methodology, Standard Release Procedures, and Gap Analysis
      Procedures.



                                            4
                                Management Response

       The Chief Information Officer responded that his office is committed to adopting a
Systems Development Methodology (SDM) that is robust, flexible, useful, and conforms
to government and industry standards. He also agreed to implement the report’s
recommendations.

                                    OIG Evalulation

      The Chief Information Officer’s reply was responsive to the report.



                                         ***
       This report is based on auditors’ conclusions and their review of the proposed
SDM and relevant standards. The findings and recommendations are subject to
review and implementation of corrective action by your office following the
existing Agency procedures for audit follow-up and resolution.

       This report may contain proprietary information subject to the provisions of 18
USC 1905. Do not release to the public or another agency without permission of the
Office of Inspector General.

       Should you or your staff have any questions, please contact Robert G. Hultberg,
Acting Director, Business Development Programs Group at (202) 205-7204.




                                            5
                                           REPORT DISTRIBUTION


Recipient                                                                                      No. of Copies


Associate Deputy Adminstrator for Management and Administration ........1

Associate Adminstrator, Office of Disaster Assistance...............................1

Chief Financial Officer ................................................................................1

General Counsel ........................................................................................2

U.S. General Accounting Office .................................................................1
